                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS
                                          I




                               CLOSEOUT MEMORANDUM



Subject: Closeout Memo


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our oEce was informed that the subject1was alleged to have failed to disclosed his financial interest
     in a company.2 At the time of the disclosure, the subject was an employee of a federal government
     agency. The subject's company paid a $5,000.00 fine and agreed to debarment. The company had
     one NSF grant3. The subject was not the PI or business officer that signed the NSF proposal.

     Accordingly this case is closed.




     OIG-02-2
